fn
@QCKLE

2311 Douglas Street :
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-300

BETH LEWIS MAZE,
Petitioner,
v.
KENTUCKY JUDICIAL CONDUCT COMMISSION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONSE IN
OPPOSITION TO PETITION FOR WRIT OF CERTIORARI in the above entitled case complies
with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century
Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains 2853 words,

excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE 1
General Notary .
State of Nebraska . Le ,

Notary Public Affiant 38747

My Commission Expires Nov 24, 2020

 
